WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-7557
Office of Lawyer Regulation

Wendy A. Nora

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:

D Please enter my appearance as Counsel of Record for all respondents.
El There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.
E I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by Il, me
Signature
Date.

cu

April 1, 2021

(Type or print) Name

Paul W. Schwarzenbart
El Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

Stafford Rosenbaum LLP

Address

222 West Washington Avenue, Suite 900

City & State
Phone

Madison, WI

608.256.0226

Zip
Email

53703

pschwarzenbart@staffordlaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Wendy A. Nora, 310 Fourth Avenue S., Suite 5010, Minneapolis, MN 55415

RECEIVED
APR 1 2 2021
OFFICE OF THE CLERK
SUPREME COURT U.S.

Paul W. Schwarzenbart

Stafford Rosen bau M LIP
Attorneys

222 West Washington Avenue, Suite 900
P.O. Box 1784
Madison, WI 53701-1784
PSchwarzenbart®staffordlaw.com
608.259.2631

April 1, 2021
Clerk of Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Wendy Alison Nora, Petitioner v. Office of Lawyer Regulation
Case No. 20-7557

Dear Clerk:
Enclosed for filing is the Waiver of respondent Office of Lawyer Regulation regarding the
Petition for Writ of Certiorari filed by Wendy Alison Nora in the above-referenced matter. By
copy of this letter, a copy of same is served on petitioner. We appreciate the Court's attention
to this matter.
Best regards,
STAFFORD ROSENBAUM LLP

Paul W. Schwarzenbart
PWS:rjm
Enclosure
cc:
Ms. Wendy Alison Nora (with enclosure; by email, fax & U.S. Mail)
Mr. William J. Weigel (with enclosure; by email only)

LADOCS \015405\ 009021 \ CORR \3Q43832.DOCX
0401211415 .
•
•
"• '

r f.

RECEIVED
APR 1 2 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

